APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Appendix A — Published Opinion of
The United States Court of Appeals
For the Ninth Circuit,
With Attachment,
entered July 3, 2019 ................... 1a
Attachment:
Merriam-Webster Online
Dictionary, www.merriamwebster.com/dictionary/cleft
(last visited June 25, 2019) ....... 25a
Appendix B — Order of
The United States District Court
For the Western District of
Washington
entered December 4, 2017 ........ 29a
Appendix C — Order of
The United States Court of Appeals
For the Ninth Circuit
Re: Denying Petition for
Rehearing En Banc
entered September 6, 2019 ....... 43a
Appendix D — Ordinance No. 3560-17 .................. 44a
Appendix E — U.S. CONST. amend. I ..................... 58a

1a
APPENDIX A
[ENTERED: July 3, 2019]
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOVANNA EDGE, an individual; |
LEAH HUMPHREY, an individual; |
No. 17-36038
LIBERTY ZISKA, an individual; |
AMELIA POWELL, an individual; |
NATALIE BJERKE, an individual; |
D.C. No.
MATTESON HERNANDEZ, an
| 2:17-cv-01361-MJP
individual,
|
Plaintiffs-Appellees, |
|
OPINION
v.
|
|
CITY OF EVERETT, a
|
Washington municipal
|
corporation,
|
Defendant-Appellant. |
Appeal from the United States District Court for the
Western District of Washington Marsha J. Pechman,
District Judge, Presiding
Argued and Submitted February 4, 2019
Seattle, Washington
Filed July 3, 2019
Before: Sandra S. Ikuta and Morgan Christen,
Circuit Judges, and Jennifer Choe-Groves,* Judge.
Opinion by Judge Christen

The Honorable Jennifer Choe-Groves, Judge for the United
States Court of International Trade, sitting by designation.
*

2a

SUMMARY**
Constitutional Law / Preliminary Injunction
The panel vacated the district court’s preliminary
injunction against enforcement of the City of Everett,
Washington’s Dress Code Ordinance—requiring that
the dress of employees, owners, and operators of
Quick-Service facilities cover “minimum body
areas”—and the amendments to the Lewd Conduct
Ordinances.
Plaintiffs are owners and employees of a bikini
barista stand in Everett, Washington.
The panel held that plaintiffs did not show a
likelihood of success on the merits of their two
Fourteenth Amendment void-for-vagueness challenges,
nor on their First Amendment free expression claim.
Concerning the Lewd Conduct Ordinances, which
expanded the definition of “lewd act” and also created
the misdemeanor offense of Facilitating Lewd
Conduct, the panel held that the activity the Lewd
Contact Amendments prohibited was reasonably
ascertainable to a person of ordinary intelligence.
The panel also held that the Amendments were not
amenable to unchecked law enforcement discretion.
The panel concluded that the district court abused its
discretion by holding that the plaintiffs were likely to
succeed on the merits of their void-for-vagueness
challenge to the Amendments.

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.
**

3a
Concerning enjoinment of the enforcement of the
Dress Code Ordinance, the panel held that the
vagueness principles governing the panel’s analysis of
the Lewd Conduct Amendments applied with equal
force to the Dress Code Ordinance. The panel
concluded that the vagueness doctrine did not
warrant an injunction prohibiting enforcement of
the Dress Code Ordinance. As to plaintiffs’ First
Amendment contention that the act of wearing almost
no clothing while serving coffee in a retail
establishment constituted speech, the panel held
that plaintiffs had not demonstrated a “great
likelihood” that their intended messages related to
empowerment and confidence would be understood by
those who view them. The panel concluded that the
mode of dress at issue in this case was not sufficiently
communicative to merit First Amendment protection.
The panel also held that the district court’s
application of intermediate scrutiny under the
“secondary effects” line of authority was inapposite,
and the City need only demonstrate that the Dress
Code Ordinance promoted a substantial government
interest that would be achieved less effectively absent
the regulation. Because the district court did not
analyze the ordinance under this framework, the
panel vacated the preliminary injunction and
remanded for further proceedings.
COUNSEL
Ramsey Everett Ramerman (argued), City of Everett,
Everett, Washington; Sarah C. Johnson and Matthew
J. Segal, Pacifica Law Group LLP, Seattle,
Washington; for Defendant-Appellant.

4a
Melinda W. Ebelhar (argued) and Gerald M. Serlin,
Benedon & Serlin LLP, Woodland Hills, California,
for Plaintiffs-Appellees.
OPINION
CHRISTEN, Circuit Judge:
“Bikini barista” stands are drive-through businesses
where scantily clad employees sell coffee and other
non-alcoholic beverages. In Everett, Washington, a
police investigation confirmed complaints that some
baristas were engaging in lewd conduct at these
establishments, that some baristas had been
victimized by patrons, and that other crimes were
associated with the stands. The City responded by
adopting Everett Municipal Code (EMC) § 5.132.010–
060 (the Dress Code Ordinance) requiring that the
dress of employees, owners, and operators of QuickService Facilities cover “minimum body areas.”
Separately, the City also broadened its lewd conduct
misdemeanor by expanding the Everett Municipal
Code’s definition of “lewd act” to include the public
display of specific parts of the body. EMC § 10.24.010.
The City also created a new misdemeanor called
Facilitating Lewd Conduct for those who permit,
cause or encourage lewd conduct. EMC § 10.24.020.
A stand owner and several baristas sued the City
pursuant to 42 U.S.C. § 1983, contending that the
Dress Code Ordinance and the amendments to the
Lewd Conduct Ordinances violate their First and
Fourteenth Amendment rights. The district court
granted plaintiffs’ motion for a preliminary injunction
and enjoined enforcement of these provisions. The
City appeals. We have jurisdiction over the City’s

5a
interlocutory appeal pursuant to 28 U.S.C. § 1292.
Because we conclude that plaintiffs did not show a
likelihood of success on the merits of their two
Fourteenth Amendment void-for-vagueness challenges,
nor on their First Amendment free expression claim,
we vacate the district court’s preliminary injunction
and remand this case for further proceedings.
I. Factual Background
Bikini barista stands have operated in and around
Everett since at least 2009. The baristas working at
these stands wear what they call “bikinis,” but the
City describes them as “nearly nude employees,” and
the district court made clear that their attire is
significantly more revealing than a typical bikini.
The district court’s finding that at least some of the
baristas wear little more than pasties and g-strings is
well-supported by the record.
Beginning in summer 2009, the Everett Police
Department (EPD) began fielding numerous citizen
complaints related to bikini barista stands. One
complainant asserted that she observed a female
barista wearing “pasties” and “a thong and what
appeared to be garter belts sitting perched in the
window with her feet on the ledge[.]” The complainant
went on to describe how a customer in a truck
approached the window and began “groping” the barista
in intimate areas. According to the complainant, “the
next customer in line . . . was clearly touching his
genitals through his clothes as he was waiting his
turn.” Stuck in traffic, the complainant wrote that
she “had to sit there w/ my 2 young daughters and was
so disgusted[.]”

6a
After receiving upwards of forty complaints,
EPD launched an undercover investigation and
documented that some baristas at this type of stand
were openly violating the existing criminal code
prohibiting various forms of lewd conduct. At the
time, EMC § 10.24.010 defined lewd conduct to
include exposure or display of one’s genitals, anus or
any portion of the areola or nipple of the female
breast, but EPD’s investigation revealed that some of
the bikini baristas removed their costumes entirely.
EPD also discovered that some baristas were not paid
hourly wages and worked for tips only, resulting in
pressure to engage in lewd acts, and that other
baristas were paid wages but still performed lewd
acts in exchange for large tips. Everett undercover
police officers took a series of graphic photos
documenting the extremely revealing nature of the
baristas’ garb and instances in which baristas
removed their tops and bottoms altogether. Officers
also documented a wide variety of customer-barista
physical contact. At least one bikini stand owner was
convicted of sexually exploiting a minor after he was
caught employing a sixteen-year old at one of the
bikini stands. See State v. Wheeler, No. 72660-9-I,
2016 WL 1306132, at *1–3 (Wash. Ct. App. 2016).
Another stand turned out to be a front for a
prostitution ring, and some of the baristas, who
worked in isolated locations late at night, reported
being victims of sexual violence. A Snohomish County
Sheriff’s Deputy was convicted of a criminal offense
after helping an owner evade the City’s undercover
officers in exchange for sexual favors.
Enforcing the City’s existing lewd conduct
ordinance required extensive use of undercover
officers and proved to be both expensive and time

7a
consuming. The City also complained that policing
the stands detracted from EPD’s efforts to address the
City’s other priorities.
After five years of using undercover operations to
prosecute individual offenders, EPD decided its
“investigative approach was an ineffective and
resource-intensive method of motivating stand
owners to stop the illegal conduct” and it began
collaborating with the City on a legislative fix. The
City complied by enacting EMC §§ 5.132.010–060, a
Dress Code Ordinance applicable only to “QuickService Facilities” like drive-throughs and coffee
stands. The City also amended its criminal code to
broaden the definition of “lewd act” and created the
crime of Facilitating Lewd Conduct. See EMC §§
10.24.010; 10.24.025. Because the constitutional
challenges in this case focus on the text and effect of
these enactments, we describe each in some detail.
A. The Lewd Conduct Amendments
The Lewd Conduct Amendments expanded the
definition of “lewd act” to include:
An exposure or display of one’s genitals,
anus, bottom one-half of the anal cleft, or
any portion of the areola or nipple of the
female breast[] or [a]n exposure of more
than one-half of the part of the female
breast located below the top of the
areola; provided that the covered area
shall be covered by opaque material and
coverage shall be contiguous to the
areola.
EMC § 10.24.010(A)(1)–(2). An “owner, lessee, lessor,
manager, operator, or other person in charge of a

8a
public place” commits the offense of Facilitating
Lewd Conduct if that person “knowingly permits,
encourages, or causes to be committed lewd conduct”
as defined in the ordinance. Id. § 10.24.025(A).
Findings supporting the City’s Lewd Conduct
Amendments state that the City “seeks to protect its
citizens from those who profit from facilitating others
to engage in the crime of Lewd Conduct, and so deems
it necessary . . . to create the new crime Facilitating
Lewd Conduct, a gross misdemeanor punishable by a
maximum penalty of 364 days in jail and a $5,000.00
fine[.]”
B. The Dress Code Ordinance
The City did not hide its effort to specifically
address the problems associated with the bikini
barista stands when it adopted the Dress Code
Ordinance. The very first factual finding in the
enactment establishing the Dress Code stated that
“[t]he City has seen a proliferation of crimes of a sexual
nature occurring at bikini barista stands throughout
the City[.]” The next paragraph memorialized the
City’s conclusion “that the minimalistic nature of the
clothing worn by baristas at these ‘bikini’ stands lends
itself to criminal conduct[.]”
The Dress Code Ordinance requires all employees,
owners, and operators of “Quick-Service Facilities” to
comply with a “dress requirement” mandating coverage
of “minimum body areas.” EMC § 5.132.020(A).
Minimum body areas are further defined as “the
upper and lower body (breast/pectorals, stomach,
back below the shoulder blades, buttocks, top three
inches of legs below the buttocks, pubic area and
genitals).” Id. § 5.132.020(B). The Dress Code
Ordinance defines Quick-Service Facilities as “coffee

9a
stands, fast food restaurants, delis, food trucks, and
coffee shops” in addition to all other drive-through
restaurants. Id. § 5.132.020(C). This ordinance
prohibits owners of Quick-Service Facilities from
operating their businesses if any employee is not in
full compliance with the dress requirement. EMC
§ 5.132.040(A)(1). Violations are deemed civil
infractions. Id. To ensure that stand owners are
motivated to enforce the dress code, the City
instituted a $250 fine for first time offenders. EMC
§ 5.132.040(B)(1). Repeat offenders face stiffer fines
and risk losing their business licenses. EMC §
5.132.040(B)(1)–(2). In enacting these provisions, the
City expressed its intent to “provide powerful tools for
reducing the illegal conduct that has occurred at
bikini barista stands in a cost-effective manner.”
II. Procedural Background
Plaintiff Jovanna Edge owns Hillbilly Hotties, a
bikini barista stand in Everett. Plaintiffs Leah
Humphrey, Liberty Ziska, Amelia Powell, Natalie
Bjerke, and Matteson Hernandez are, or at one time
were, baristas employed at Hillbilly Hotties.
Approximately one week after the Lewd Conduct
Amendments and Dress Code Ordinance went into
effect, plaintiffs filed this lawsuit alleging multiple
constitutional violations, two of which are relevant to
this appeal. Plaintiffs’ complaint alleges: (1) that the
Dress Code Ordinance and the Lewd Conduct
Amendments violate their First Amendment rights to
free expression, and (2) that the new provisions
violate the Due Process Clause because they are
unconstitutionally vague.
Plaintiffs’ First Amendment free expression claim
asserts that the baristas convey messages such as

10a
“female empowerment,” “confiden[ce],” and “fearless
body acceptance” by wearing bikinis while working. In
support of their motion for a preliminary injunction,
plaintiffs submitted declarations from several baristas
explaining their views that “a bikini is not a sexual
message, [it’s] more a message of empowerment,” “we
are empowered to be comfortable in our bodies,” “[t]he
bikini sends the message that I am approachable,” “the
message I send is freedom[,]” and “my employees
expose messages through tattoos and scars.”1 The
baristas assert that their choice of clothing
demonstrates that they are “fun and more open,” and
that wearing bikinis at work shows they are
“empowered, confident, and free.” Plaintiff Edge, owner
of Hillbilly Hotties, explained that her employees’
dress allows them to “tell stories of who they are[.]”
Notably, in the district court and on appeal,
plaintiffs persistently disavow that they are nude
dancers or that they engage in erotic performances,
conduct that is expressly protected under the First
Amendment. See Barnes v. Glen Theatre, Inc., 501 U.S.
560, 566 (1991).2 Plaintiffs’ argument is that simply

We have considered all of plaintiffs’ diverse messages. For
brevity, we refer to the baristas’ intended messages as those
“relating to empowerment and confidence” throughout this
opinion, recognizing that each individual barista’s intended
message is likely somewhat unique.
1

Nude dancing and erotic performances are subject to
Everett’s pre-existing ordinances regulating “public places of
adult entertainment.” See EMC § 5.120. These regulations
require adult entertainment businesses to obtain licenses and
adhere to standards of conduct and operations, among other
restrictions. See EMC §§ 5.120.030; 5.120.070. Everett’s zoning
ordinances also restrict the location of adult businesses,
excluding them from operating within the downtown core. See
id. §§ 19.05.090; 19.05 Table 5.2.
2

11a
wearing what they refer to as bikinis is itself sufficiently
expressive to warrant First Amendment protection,
and that the City’s new ordinance and amendments
therefore impermissibly burden their speech.
The City disputes the baristas’ premise that the act
of wearing pasties and g-strings at work constitutes
speech. The City also offers extensive evidence of
adverse secondary effects associated with the stands,
including prostitution and sexual violence, and
argues that the new ordinance and Lewd Conduct
Amendments are aimed at those effects.
Plaintiffs’ motion for a preliminary injunction
alleged that the new measures are impermissibly
vague because they use ambiguous language to define
parts of the body that must be covered by employees,
owners, and operators of barista stands, and that a
person of ordinary intelligence is denied a reasonable
opportunity to know what conduct the City now
prohibits. The City’s opposition denied that the text
of the Dress Code Ordinance and Lewd Conduct
Amendments is vague or ambiguous, but the City
voluntarily agreed to suspend enforcement of the new
measures pending resolution of plaintiffs’ motion for
a preliminary injunction.
III. The Preliminary Injunction
In Winter v. Natural Resources Defense Council,
the Supreme Court held that a plaintiff seeking a
preliminary injunction must establish “[(1)] that he is
likely to succeed on the merits, [(2)] that he is likely
to suffer irreparable harm in the absence of
preliminary relief, [(3)] that the balance of equities
tips in his favor, and [(4)] that an injunction is in the
public interest.” Coffman v. Queen of Valley Med.

12a
Ctr., 895 F.3d 717, 725 (9th Cir. 2018) (quoting Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008))
(alterations in original). “Likelihood of success on the
merits is the most important factor; if a movant fails
to meet this threshold inquiry, we need not consider
the other factors.” California v. Azar, 911 F.3d 558,
575 (9th Cir. 2018) (internal quotation marks
omitted).
The district court applied the Winter factors and
concluded that plaintiffs had demonstrated a
likelihood of success on the merits of their vagueness
challenges. The court expressed concern that the
compound term “anal cleft” in the definition of “lewd
act” is vague, and also ruled that both ordinances are
susceptible to “arbitrary enforcement.” Separately,
the court concluded that plaintiffs had established a
likelihood of success on the merits of their First
Amendment free expression challenge to the Dress
Code Ordinance, a ruling based on the court’s
conclusion that the act of wearing pasties and gstrings at Quick-Service Facilities was sufficiently
expressive to merit constitutional protection.
The district court decided that plaintiffs had
satisfied the remaining Winter factors, see 555 U.S. at
7, and enjoined enforcement of the new ordinances
and amendments.
IV. Standard of Review
We review the district court’s order granting a
preliminary injunction “for an abuse of discretion,”
Gorbach v. Reno, 219 F.3d 1087, 1091 (9th Cir. 2000)
(en banc), but “legal issues underlying the injunction
are reviewed de novo because a district court would
necessarily abuse its discretion if it based its ruling

13a
on an erroneous view of law.” Adidas Am., Inc. v.
Sketchers USA, Inc., 890 F.3d 747, 753 (9th Cir. 2018)
(quoting GoTo.com, Inc. v. Walt Disney Co., 202 F.3d
1199, 1204 (9th Cir. 2000)). When an injunction
involves a First Amendment challenge, constitutional
questions of fact (such as whether certain restrictions
create a severe burden on an individual’s First
Amendment rights) are reviewed de novo. See Prete
v. Bradbury, 438 F.3d 949, 960 (9th Cir. 2006) (citing
Planned Parenthood of the Columbia/Willamette, Inc.
v. Am. Coal. of Life Activists, 290 F.3d 1058, 1070 (9th
Cir. 2002)).
V. The Lewd Conduct Amendments
We first analyze the Lewd Conduct Amendments,
which expanded the definition of “lewd act” and also
created the misdemeanor offense of Facilitating Lewd
Conduct.
“It is a basic principle of due process that an
enactment is void for vagueness if its prohibitions are
not clearly defined.” Grayned v. City of Rockford, 408
U.S. 104, 108 (1972). That said, we recognize that
“[c]ondemned to the use of words, we can never expect
mathematical certainty from our language.” Id. at
110. To put a finer point on it: “perfect clarity and
precise guidance have never been required even of
regulations that restrict expressive activity.” United
States v. Williams, 553 U.S. 285, 304 (2008) (quoting
Ward v. Rock Against Racism, 491 U.S. 781, 794
(1989)).
The vagueness doctrine incorporates two related
requirements. First, “laws [must] give the person of
ordinary intelligence a reasonable opportunity to
know what is prohibited, so that he may act

14a
accordingly.” Grayned, 408 U.S. at 108. Typically, all
that is required to satisfy this due process concern is
“‘fair notice’ of the conduct a statute proscribes.”
Sessions v. Dimaya, 138 S. Ct. 1204, 1212 (2018). But
“where [F]irst [A]mendment freedoms are at stake, an
even greater degree of specificity and clarity of laws
is required,” Kev, Inc. v. Kitsap Cty., 793 F.2d 1053,
1057 (9th Cir. 1986) (citing Grayned, 408 U.S. at 108–
09), and courts ask whether language is sufficiently
murky that “speakers will be compelled to steer too
far clear of any forbidden area[s.]” Nat’l Endowment
for the Arts v. Finley, 524 U.S. 569, 588 (1996)
(internal quotation marks omitted). This enhanced
standard protects against laws and regulations that
might have the effect of chilling protected speech or
expression by discouraging participation.
The vagueness doctrine’s second requirement aims
to avoid “arbitrary and discriminatory enforcement,”
and demands that laws “provide explicit standards for
those who apply them.” Grayned, 408 U.S. at 108.
A law that relies on a subjective standard—such as
whether conduct amounts to an “annoyance”—is
constitutionally suspect. See id. at 113. In Coates v.
Cincinnati, 402 U.S. 611, 614 (1971), for example, an
ordinance was deemed unconstitutionally vague
because it criminalized the assembly of three or
more persons on city sidewalks if they conducted
themselves in a manner annoying to passers by. The
Supreme Court observed that “[c]onduct that annoys
some people does not annoy others,” id., and it struck
down the ordinance because “men of common
intelligence must necessarily guess at its meaning.”
Id. (quoting Connally v. Gen. Constr. Co., 269 U.S.
385, 391 (1926)).

15a
Here, the district court concluded that the
amended definition of “lewd act” similarly fails to give
a person of ordinary intelligence a reasonable
opportunity to conform his or her conduct to the City’s
law. The court explained that it was “uncertain as
to the meaning of the compound term ‘anal cleft’
as used” in the amended definition, because “[t]he
term ‘bottom one-half of the anal cleft’ is not welldefined or reasonably understandable[.]” We reach
the opposite conclusion. Having examined the text
adopted by the City, we are not persuaded that the
public will be left to guess at the meaning of the term
“anal cleft,” particularly because the meanings of both
“anal” and “cleft” are easily discerned through
recourse to a common dictionary. See, e.g., United
States v. Wyatt, 408 F.3d 1257, 1261 (9th Cir. 2005)
(relying in part on the dictionary definition of an
allegedly ambiguous term); Kev, Inc., 793 F.2d at
1057 (same).3 Moreover, “[t]his circuit has previously
recognized that otherwise imprecise terms may avoid
vagueness problems when used in combination with
terms that provide sufficient clarity.” Gammoh v. City
of LaHabra, 395 F.3d 1114, 1120 (9th Cir. 2005)
(citing Kev, Inc., 793 F.2d at 1057). The Lewd
Conduct Ordinance uses the term “anal cleft” in near
proximity to a list of other intimate body parts.
Viewing these facts together, we conclude that a
person of ordinary intelligence reading the ordinance

Merriam-Webster defines “anal” as “of, relating to, situated
near, or involving the anus” and defines “cleft” as “a space or
opening made by or as if by splitting.” (emphasis added). It
goes on to identify the phrase “the anal cleft of the human body”
as an example. See Merriam-Webster Online Dictionary,
www.merriam-webster.com/dictionary/cleft (last visited June
25, 2019). We agree with the City that “[t]here is only one
possible portion of the human body that fits this description.”
3

16a
in its entirety will be adequately informed about what
body areas cannot be exposed or displayed “in a public
place or under circumstances where such act is likely
to be observed by any member of the public.” EMC
§ 10.24.020. Likewise, we conclude that the modifier
“bottom one-half” does no more than specify an
easily ascertained fractional part of an otherwise
well-understood area of the body. Plaintiffs do
not expressly challenge the new misdemeanor
Facilitating Lewd Conduct on vagueness grounds, but
we note that this provision does no more than prohibit
owners, operators, lessors, lessees or any person “in
charge of a public place” from knowingly permitting,
or causing another person to commit lewd conduct as
defined in EMC § 10.24.010. This prohibition is clear,
as is the definition of lewd conduct. We therefore hold
that the activity the Lewd Conduct Amendments
prohibit is reasonably ascertainable to a person of
ordinary intelligence.4
The second part of the vagueness test concerns
whether the Lewd Conduct Amendments are
amenable to unchecked law enforcement discretion.
See, e.g., Papachristou v. City of Jacksonville, 405
U.S. 156, 169–70 (1972).5 Definitions of proscribed

The district court did not analyze whether any term other
than “anal cleft” is reasonably ascertainable to a person of
ordinary intelligence, and we decline to do so in the first instance.
4

5
The Jacksonville, Florida ordinance at issue in
Papachristou deemed the following people “vagrants” and
therefore guilty of a criminal offense:

Rogues and vagabonds, or dissolute persons who
go about begging, common gamblers, persons
who use juggling or unlawful games or plays,
common drunkards, common night walkers,
thieves, pilferers or pickpockets, traders in stolen

17a
conduct that rest wholly or principally on the
subjective viewpoint of a law enforcement officer run
the risk of unconstitutional murkiness. See, e.g.,
Gammoh, 395 F.3d at 1119–20 (collecting cases);
Tucson Woman’s Clinic v. Eden, 379 F.3d 531, 554–55
(9th Cir. 2004). Everett’s definition of lewd conduct
requires that certain areas of the body be covered in
public and as we have explained, the definition is not
ambiguous. Nor does the definition rely on the
subjective assessment of an enforcing officer. The
term “anal cleft” is clear and ascertainable and what
constitutes the “bottom half” of this unambiguously
described part of the human body is also an objective
standard. In short, EMC § 10.24.010’s description
of the body parts that must be covered in public
does not create a constitutional problem by inviting
discretionary enforcement because there are “standards
governing the exercise of the discretion granted by the
ordinance[.]” Papachristou, 405 U.S. at 170.
Plaintiffs argue that there will be close cases
requiring some degree of law enforcement subjectivity
when the Lewd Conduct Amendments are enforced,
and the district court shared this concern. But
“the mere fact that close cases can be envisioned”

property, lewd, wanton and lascivious persons,
keepers of gambling places, common railers and
brawlers, persons wandering or strolling around
from place to place without any lawful purpose
or object, habitual loafers, disorderly persons,
persons neglecting all lawful business and
habitually spending their time by frequenting
houses of ill fame, gaming houses, or places
where alcoholic beverages are sold or served,
persons able to work but habitually living upon
the earnings of their wives or minor children[.]
Papachristou, 405 U.S. at 156 n.1.

18a
does not render an otherwise permissible statute
unconstitutionally vague. Williams, 553 U.S. at 305.
The Supreme Court has observed in other criminal
contexts that close cases are addressed “not by the
doctrine of vagueness, but by the requirement of proof
beyond a reasonable doubt.” Id. at 306. Put another
way, in close cases, a fact finder will decide whether
the City has met its burden by the required standard
of proof. That determination does not raise
constitutional vagueness concerns so long as the legal
standard against which it is measured is sufficiently
clear. All a statute must define with specificity is
what the fact finder is required to decide in any given
case. See id. (“What renders a statute vague is not
the possibility that it will sometimes be difficult to
determine whether the incriminating fact it establishes
has been proved; but rather the indeterminacy of
precisely what that fact is.” (emphasis added)).
The district court abused its discretion by ruling
that plaintiffs are likely to succeed on the merits of
their void-for-vagueness challenge to the Lewd
Conduct Amendments. We therefore vacate the
district court’s preliminary injunction with respect to
the Lewd Conduct Amendments.
VI. The Dress Code Ordinance
We next consider the district court’s order
enjoining enforcement of the Dress Code Ordinance.
EMC § 5.132.030 mandates that employees,
operators, and owners of “Quick-Service Facilities”
comply with the City’s dress requirement. The Dress
Code Ordinance makes it unlawful to serve customers
or operate a Quick-Service Facility if “minimum body
areas” of the owner or any employee are not covered.
EMC § 5.132.030. “Minimum body areas” are defined

19a
as: “breast/pectorals, stomach, back below the
shoulder blades, buttocks, top three inches of legs
below the buttocks, pubic area and genitals.” EMC
§ 5.132.020(B). The district court enjoined the Dress
Code Ordinance for two distinct reasons: (1) the court
concluded that the Dress Code Ordinance’s
susceptibility to arbitrary enforcement renders it
unconstitutionally vague; and (2) the district court
concluded that the Dress Code Ordinance likely fails
First Amendment review because it impermissibly
burdens plaintiffs’ rights to free expression. We
address each rationale in turn.
A. Vagueness
The vagueness principles governing our analysis
of the Lewd Conduct Amendments apply with equal
force to the Dress Code Ordinance. The fact that law
enforcement may have to make some close judgment
calls regarding compliance with these provisions does
not, perforce, mean that police are vested with
impermissibly broad discretion. See Williams, 553
U.S. at 306. The terms of the Dress Code Ordinance
are sufficiently clear to preclude enforcement on “an
ad hoc and subjective basis” because the dress
requirement clearly defines areas of the body that
owners and employees must cover while operating
Quick-Service Facilities, using commonly understood
names for those body areas. Hunt v. City of L.A., 638
F.3d 703, 712 (9th Cir. 2011). Enforcement does not
require subjective judgments. Id. All an officer must
determine is whether the upper body (specifically, the
breast/pectorals, stomach, back below the shoulder
blades) and lower body (the buttocks, top three inches
of legs below the buttocks, pubic area and genitals)
are covered. The meaning of these parts of the body

20a
is not beyond the common experience of an ordinary
layperson, and the ordinance does not require that
officers assessing potential violations delve into
subjective questions. Cf. id. (observing that what
constitutes a “religious, political, philosophical, or
ideological” message is subjective). Because the Dress
Code Ordinance is not open to the kind of arbitrary
enforcement that triggers due process concerns, the
vagueness doctrine does not warrant an injunction
prohibiting enforcement of the Dress Code Ordinance.
B. Free Expression
The district court also concluded that plaintiffs
demonstrated a likelihood of success on the merits of
their First Amendment challenge to the Dress Code
Ordinance. This part of the court’s order relied on its
determination that the baristas’ choice to wear
provocative attire (pasties and g-strings) constituted
sufficiently expressive conduct to warrant First
Amendment protection, that the Dress Code
Ordinance amounted to a content-neutral restriction
on the baristas’ speech, and that the Dress Code
Ordinance failed intermediate scrutiny under the
“secondary effects” line of cases. See City of Renton v.
Playtime Theatres, Inc., 475 U.S. 41, 48 (1986)
(applying intermediate scrutiny to ordinances aimed
at combating the side-effects of adult and sexually
oriented businesses).
“The First Amendment literally forbids the
abridgment only of ‘speech,’” but the United States
Supreme Court has “long recognized that its
protection does not end at the spoken or written
word.” Texas v. Johnson, 491 U.S. 397, 404 (1989).
The Supreme Court refers to non-speech activity that
is within the ambit of the First Amendment’s

21a
protections as “expressive conduct.” See, e.g., Clark v.
Cmty. for Creative Non-Violence, 468 U.S. 288, 293
(1984). Conduct that is “sufficiently imbued with
elements of communication” is protected by the First
Amendment, Johnson, 491 U.S. at 404 (quoting
Spence v. Washington, 418 U.S. 405, 409 (1974) (per
curiam)), but the Court “has consistently rejected ‘the
view that an apparently limitless variety of conduct
can be labeled ‘speech’ whenever the person engaging
in the conduct intends thereby to express an idea.’”
Anderson v. City of Hermosa Beach, 621 F.3d 1051,
1058 (9th Cir. 2010) (quoting United States v. O’Brien,
391 U.S. 367, 376 (1968)). The Court has never
“invalidated the application of a general law simply
because the conduct that it reached was being engaged
in for expressive purposes and the government could
not demonstrate a sufficiently important state
interest.” Barnes, 501 U.S. at 577 (Scalia, J.,
concurring). “Because the Court has eschewed a rule
that ‘all conduct is presumptively expressive,’
individuals claiming the protection of the First
Amendment must carry the burden of demonstrating
that their nonverbal conduct meets the applicable
standard.” Knox v. Brnovich, 907 F.3d 1167, 1181 (9th
Cir. 2018) (quoting Clark, 468 U.S. at 293 n.5).
Expressive conduct is characterized by two
requirements: (1) “an intent to convey a particularized
message” and (2) a “great” “likelihood . . . that the
message would be understood by those who viewed it.”
Johnson, 491 U.S. at 404 (quoting Spence, 418 U.S. at
410–11); see also Vivid Entm’t, LLC v. Fielding, 774
F.3d 566, 579 (9th Cir. 2014). With respect to the first
requirement—an intent to convey a particularized
message—First Amendment protection is only
granted to the act of wearing particular clothing or

22a
insignias where circumstances establish that an
unmistakable communication is being made. See,
e.g., Nat’l Socialist Party of Am. v. Village of Skokie,
432 U.S. 43 (1977) (per curiam) (declining to enjoin
Nazi marchers from wearing symbols of ideology in
parade); Cohen v. California, 403 U.S. 15, 18 (1971)
(concluding that a person wearing a jacket bearing
the inscription “F— the Draft” was entitled to First
Amendment protections); Tinker v. Des Moines Indep.
Cmty. Sch. Dist., 393 U.S. 503, 505–06 (1969) (holding
that students who wore black armbands to protest
Vietnam War engaged in expressive conduct “‘closely
akin to pure speech[.]’”).
Even if plaintiffs could show that their intent is to
convey a particularized message, and thereby satisfy
the first requirement for classification as expressive
conduct, Johnson, 491 U.S. at 404, plaintiffs’ First
Amendment claim falters for failure to show a great
likelihood that their intended message will be
understood by those who receive it. See id.
Context is everything when deciding whether others
will likely understand an intended message conveyed
through expressive conduct. To decide whether the
public is likely to understand the baristas’ intended
messages related to empowerment and confidence, we
consider “the surrounding circumstances[.]” Spence,
418 U.S. at 411. The Supreme Court made this clear
in Spence, where a college student displayed a flag
with an attached peace symbol from his university
dorm room “roughly simultaneous with” the United
States’ invasion of Cambodia and the Kent State
shootings. Id. at 410. Under these circumstances, the
Supreme Court observed that “it would have been
difficult for the great majority of citizens to miss the

23a
drift of [the student’s] point at the time that he made
it.” Id. Likewise, the choice to wear military medals—
even medals one has not earned—”communicates that
the wearer was awarded that medal and is entitled to
the nation’s recognition and gratitude ‘for acts of
heroism and sacrifice in military service.’” United
States v. Swisher, 811 F.3d 299, 314 (9th Cir. 2016) (en
banc) (quoting United States v. Alvarez, 567 U.S. 709,
724 (2012) (Kennedy, J., plurality opinion)). In the
same way, a student group’s choice to wear black arm
bands to school during the 1965 holiday season was
protected by the First Amendment because the group’s
intended anti-Vietnam War message “was closely
akin to ‘pure speech[.]’” Tinker, 393 U.S. at 505.
The context here is starkly different from cases
where First Amendment protection has been extended
to expressive clothing or symbols. The Dress Code
Ordinance applies at Quick-Service Facilities—coffee
stands, fast food restaurants, delis, food trucks, coffee
shops and drive-throughs. See EMC § 5.132.020(C).
In other words, it applies at retail establishments
that invite commercial transactions, and in these
transactions, the baristas undisputedly solicit tips.
The baristas’ act of wearing pasties and g-strings in
close proximity to paying customers creates a high
likelihood that the message sent by the baristas’
nearly nonexistent outfits vastly diverges from those
described in plaintiffs’ declarations. The commercial
setting and close proximity to the baristas’ customers
makes the difference.
Because plaintiffs have not demonstrated a “great
likelihood” that their intended messages related to
empowerment and confidence will be understood by
those who view them, we conclude that the mode of

24a
dress at issue in this case is not sufficiently
communicative to merit First Amendment protection.
We stress that plaintiffs deny that they engage in
nude dancing and erotic performances, thereby
disavowing the First Amendment protections
available for that conduct. See Barnes, 501 U.S. at
566. The outcome of this case turns on the plaintiffs’
contention that the act of wearing almost no clothing
while serving coffee in a retail establishment
constitutes speech. Because wearing pasties and
g-strings while working at Quick-Service Facilities is
not “expressive conduct” within the meaning of the
First Amendment, the Dress Code Ordinance does not
burden protected expression.
The district court’s application of intermediate
scrutiny under the “secondary effects” line of
authority was inapposite because that doctrine
applies to regulations that burden speech within the
ambit of the First Amendment’s sphere of protection.
See World Wide Video of Wash., Inc. v. City of
Spokane, 368 F.3d 1186, 1192 (9th Cir. 2004). Here,
because the Dress Code Ordinance does not burden
expressive conduct protected by the First Amendment,
the City need only demonstrate that it “promotes a
substantial government interest that would be
achieved less effectively absent the regulation.”
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 67 (2006) (quoting United States v.
Albertini, 472 U.S. 675, 689 (1985)). The district court
did not analyze the ordinance under this framework,
so we vacate its preliminary injunction and remand
for further proceedings.
VACATED AND REMANDED.


25a
Merriam-Webster
cleft noun
\’kleft \
Definition of cleft (Entry 1 of 2)
1 : a space or opening made by or as if by splitting
: FISSURE
2 : a usually V-shaped indented formation : a hollow
between ridges or protuberances
// the anal cleft of the human body
cleft adjective
Definition of cleft (Entry 2 of 2)
: partially split or divided
specifically : divided about halfway to the midrib
// a cleft leaf
Synonyms
Synonyms for cleft
Synonyms: Noun
check, chink, crack, cranny, crevice, fissure, rift, split
Visit the Thesaurus for More
Examples of cleft in a Sentence
Noun
// The river begins as a trickle of water from a cleft in
the rock.
// He has a distinctive cleft in his chin.
Recent Examples on the Web: Noun
// While visiting an orphanage in Bangladesh in 1991,
Cindy came across baby Bridget who suffered from a

26a
severe cleft palette as well as a congenital heart
condition.
— Lauren Hubbard, Town & Country, “How John
McCain’s Children Were Shaped by His Political
Career,” 27 Aug. 2018
// The site plan, by landscape architect Kristen
Reimann, includes natural-cleft bluestone patios and
a saltwater pool.
— Marni Elyse Katz, BostonGlobe.com, “After renting
for years on Martha’s Vineyard, building a getaway
all their own,” 15 June 2018
These example sentences are selected automatically
from various online news sources to reflect current
usage of the word ‘cleft.’ Views expressed in the
examples do not represent the opinion of MerriamWebster or its feedback.
See More
First Known Use of cleft
Noun
14th century, in the meaning defined at sense 1
Adjective
14th century, in the meaning defined above
History and Etymology for cleft
Noun
Middle English clift, from Old English geclyft; akin to
Old English cleofan to cleave
Adjective
Middle English, from past participle of cleven

27a
Learn More about cleft
Share cleft

Resources for cleft

Dictionary Entries near cleft
cleek
cleeve
clef
cleft
clefted
cleft-footed
cleft graft
Statistics for cleft
Look-up Popularity
Bottom 40% of words
More Definitions for cleft
cleft noun
English Language Learners Definition of cleft
: a narrow space in the surface of something
: a narrow area that looks like a small dent in
someone’s chin
See the full definition for cleft in the English
Language Learners Dictionary
cleft noun
\ ’kleft \
Kids Definition of cleft (Entry 1 of 2)
1 : a space or opening made by splitting or cracking
: CREVICE
2 : NOTCH entry 1 sense 1

28a
cleft adjective
Kids Definition of cleft (Entry 2 of 2)
: partly split or divided
cleft noun
\ ’kleft \
Medical Definition of cleft
1 : a usually abnormal fissure or opening especially
when resulting from failure of parts to fuse during
embryonic development
2 : a usually V-shaped indented formation : a hollow
between ridges or protuberances
// the anal cleft of the human body
3 : the hollow space between the two branches of the
frog or the frog and bars or between the bulbs of
the heel of a horse’s hoof
4 : a crack on the bend of the pastern of a horse
5 : a division of the cleft foot of an animal
6 : SYNAPTIC CLEFT
More from Merriam-Webster on cleft
Rhyming Dictionary: Words that rhyme with cleft
Thesaurus: All synonyms and antonyms for cleft
Spanish Central: Translation of cleft
Nglish: Translation of cleft for Spanish Speakers
Britannica English: Translation of cleft for Arabic
Speakers
Comments on cleft
What made you want to look up cleft? Please tell us
where you read or heard it (including the quote, if
possible).
Show Comments

29a
APPENDIX B
[ENTERED: December 4, 2017]
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
JOVANNA EDGE, et al., |
CASE NO.
|
C17-1361-MJP
Plaintiff,
|
| ORDER GRANTING
v.
| PLAINTIFFS’ MOTION
| FOR PRELIMINARY
CITY OF EVERETT,
|
INJUNCTION
|
Defendant. |
|
THIS MATTER comes before the Court on
Plaintiffs’ Motion for a Preliminary Injunction (Dkt.
No. 8) and Defendant’s Motion to Strike (Dkt. No. 40).
Having reviewed the Motions, the Response (Dkt. No.
28), the Reply (Dkt. No. 36), the Surreply (Dkt. No.
40) and all related papers, the Court GRANTS
Defendant’s Motion to Strike and GRANTS Plaintiffs’
Motion for a Preliminary Injunction.
Opinion Summary
Plaintiffs Jovanna Edge and others are employed
by “bikini barista stands,” drive-through stands where
baristas serve coffee to customers while wearing
bikinis. Plaintiffs challenge the constitutionality of
two ordinances recently enacted by the City of Everett.
The Citywide Ordinance restricts dress citywide, and
prohibits exposure of “more than one-half of the part
of the female breast located below the top of the
areola,” “the genitals, anus, bottom one-half of the

30a
anal cleft, or any portion of the areola or nipple of the
female breast.” The Dress Code Ordinance requires
“bikini baristas” and employees of similar facilities to
wear clothing that covers “the upper and lower body
(breast/pectorals, stomach, back below the shoulder
blades, buttocks, top three inches of the legs below the
buttocks, pubic area and genitals).” Plaintiffs have
moved for a preliminary injunction to prevent the
City from enforcing these ordinances.
The Court finds that the Citywide Ordinance and
the Dress Code Ordinance are likely void for
vagueness under the Fourteenth Amendment. The
term “bottom one-half of the anal cleft” is not welldefined or reasonably understandable, and the
ordinances otherwise fail to provide clear guidance
and raise risks of arbitrary enforcement. The Court
finds that the Dress Code Ordinance likely violates
Plaintiffs’ right to free expression under the First
Amendment. Accordingly, the Court GRANTS
Plaintiffs’ Motion for a Preliminary Injunction.
Background
Plaintiffs Jovanna Edge, et al. challenge the
constitutionality of two ordinances recently enacted
by Defendant City of Everett. (See Dkt. No. 1.)
Plaintiffs include the owner and employees of “bikini
barista stands,” which are drive-through stands
where baristas serve coffee to customers while
wearing bikinis. (Dkt. No. 8 at 8.)
The challenged ordinances are Ordinance No. 355917 (the “Citywide Ordinance”) and Ordinance No.
3560-17 (the “Dress Code Ordinance”) (collectively,
the “Ordinances”). (Id. at 10.)

31a
The Citywide Ordinance amends the City’s
existing definition of “Lewd Conduct” to include
“exposure of more than one-half of the part of the
female breast located below the top of the areola” and
“exposure or display” of “one’s genitals, anus, bottom
one-half of the anal cleft, or any portion of the areola
or nipple of the female breast.” (Dkt. No. 8-1 at 4.)
Violation is punishable by up to 90 days in jail and a
fine of up to $1,000. (Id. at 2.) An owner, manager, or
operator of a public place who “knowingly permits,
encourages, or causes to be committed lewd conduct”
is guilty of “facilitating lewd conduct,” and is subject
to up to one year in jail and a $5,000 fine. (Id. at 5.)
The Dress Code Ordinance requires employees of
“Quick-Service Facilities,” including coffee stands and
coffee shops, fast food restaurants, delis, food trucks,
and “businesses that provide drive-thru forms of food
and/or beverage service” to wear clothing that covers
“the upper and lower body (breast/pectorals, stomach,
back below the shoulder blades, buttocks, top three
inches of the legs below the buttocks, pubic area and
genitals).” (Dkt. No. 8-2 at 5.) Violations are issued
against the owner of the Quick-Service Facility, and
are punishable by a fine of up to $500 and revocation
of license to operate. (Id. at 6-7.)
Plaintiffs contend the Ordinances violate their
rights to free expression and discriminate on the
basis of gender, and bring causes of action for
violations of the First Amendment; the Equal
Protection Clause of the Fourteenth Amendment;
Substantive Due Process under the Fifth and
Fourteenth Amendments; Article I, Sections 5 and 12
of the Washington State Constitution; and 42 U.S.C.
§ 1983. (Dkt. No. 1 at 11-22.) Plaintiffs further
contend the Ordinances are void for vagueness under

32a
the Fourteenth Amendment and Article I, Section 5 of
the Washington State Constitution. (Id. at 15, 18.)
Plaintiffs move for a preliminary injunction to
prevent the city from enforcing the Ordinances until
the Court rules on their constitutionality.1 (See Dkt.
No. 8.)
Plaintiffs claim they wear bikinis to express
personal and political messages, including messages
of “freedom, empowerment, openness, acceptance,
approachability, vulnerability, and individuality.”
(Id.) Plaintiffs claim that “[b]y confidently revealing
tattoos, scars, and personal attributes in the bikinis
they select,” they “convey their fearless body
acceptance and freedom from judgment,” “express[]
personal viewpoints,” and invite “customers to ask
questions and open dialogue.” (Id. at 7, 16.) Plaintiffs
claim these messages are understood by customers
and prompt conversations about “body image and selfconfidence.” (Id. at 16.)
The City contends the Ordinances are needed to
“prevent dangerous and unlawful conduct” inherent
to bikini barista stands, including “flashing, explicit
shows, sexual contact in exchange for money and
public masturbation” and “prostitution, lewd conduct,
drug use, sexual exploitation and sexual assault.”
(Dkt. No. 28 at 14.) The City contends that “the
minimalistic nature of the clothing” worn by bikini
baristas lends itself to this conduct because baristas
can quickly and easily remove or adjust their bikinis
to engage in sexual contact with customers. (Dkt. No.
8-2 at 2.) The City cites a series of law enforcement
investigations which led to “numerous arrests for

The City has agreed to suspend enforcement until the
Court rules on Plaintiffs’ Motion. (Dkt. No. 10 at 7.)
1

33a
lewd conduct and prostitution” over several years.
(Dkt. No. 28 at 3-4, 7.) The City claims its existing
laws are insufficient, and that the Ordinances will
allow it to more readily impose penalties on stand
owners who permit employees to engage in such
conduct. (Id. at 5-6.)
Discussion
I. Motion to Strike
The City moves to strike the Declaration of
Hannah Ard, filed in support of Plaintiffs’ Reply.
(Dkt. No. 40.) The declaration was prepared by
counsel and purports to compare crime rates in areas
surrounding bikini barista stands and other
businesses. (See Dkt. No. 37.) The Court finds that
the declaration is based upon hearsay not subject to
any exception, and is therefore inadmissible. The
screenshots attached to the declaration are not public
records, are not properly authenticated under Fed. R.
Evid. 901, and are not self-authenticating under Fed.
R. Evid. 902. The declaration relies upon the
screenshots to form improper expert opinions not
permitted under Fed. R. Evid. 702 and 703.
Therefore, the Court GRANTS Defendant’s Motion to
Strike. The Declaration of Hannah Ard is stricken in
its entirety and is not relied upon in the Court’s
consideration of Plaintiffs’ Motion.
II. Motion for Preliminary Injunction
The Court considers four factors in examining
Plaintiffs’ request for a preliminary injunction: (1)
likelihood of success on the merits, (2) likelihood of
irreparable harm, (3) the balance of equities, and (4)
the public interest. Winter v. Natural Res. Def.
Council, Inc., 555 U.S. 7, 20 (2008). “When the

34a
government is a party, these last two factors merge.”
Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092
(9th Cir. 2014) (citing Nken v. Holder, 556 U.S. 418,
435 (2009)).
A. Likelihood of Success on the Merits
The Court finds that Plaintiffs have established a
likelihood of success on the merits at least with regard
to their Fourteenth Amendment and First
Amendment claims.
i. Fourteenth
Vagueness

Amendment:

Void

for

An ordinance is void for vagueness if it (1) fails to
give a “person of ordinary intelligence a reasonable
opportunity to know what is prohibited” or (2)
“impermissibly delegates basic policy matters to
policemen, judges, and juries for resolution on an ad
hoc and subjective basis, with the attendant dangers
of arbitrary and discriminatory application.” See
Grayned v. City of Rockford, 408 U.S. 104, 108-109
(1972). Plaintiffs contend that the Citywide
Ordinance and the Dress Code Ordinance are
unconstitutionally vague and subject to arbitrary and
abusive enforcement.
The Citywide Ordinance prohibits exposure of the
“bottom one-half of the anal cleft.” (Dkt. No. 8-1 at 4.)
While the term “anal cleft” is not defined, the City
claims its meaning can be readily discerned from the
dictionary, which defines “anal” to mean “of, relating
to, or situated near the anus,” and “cleft” to mean “a
space or opening made by or as if by splitting.”2 (Dkt.

The City also cites several cases upholding ordinances
containing the term “anal cleft” in other jurisdictions. (See Dkt.
No. 28 at 23.) The Court notes that in each of these ordinances,
2

35a
No. 28 at 23 n.21.) Notwithstanding these definitions,
the Court is uncertain as to the meaning of the
compound term “anal cleft” as used in the Citywide
Ordinance, and finds that this term is not reasonably
discernable to a person of ordinary intelligence.
The Court also finds that the Citywide Ordinance
and the Dress Code Ordinance create dangers of
arbitrary enforcement. Both Ordinances require law
enforcement to engage in a “highly fact-specific
analysis” and leave determinations of compliance “to
the subjective judgment of the officer.” Hunt v. City
of Los Angeles, 638 F.3d 703, 712 (9th Cir. 2011). For
instance, to determine whether “more than one-half
of the part of the female breast located below the top
of the areola” is exposed in violation of the Citywide
Ordinance, an officer must locate and measure from
the “top of the areola” to the bottom of the breast. To
determine whether the “top three inches of legs below
the buttocks” are exposed in violation of the Dress
Code Ordinance, an officer must identify precisely
where the buttocks end and the legs begin. While
these determinations may be straightforward in some
cases, they will inevitably be less so in others.
Therefore, the Court finds that Plaintiffs are likely
to prevail on their claims that the Ordinances are void
for vagueness in violation of the Fourteenth
Amendment.

the term appeared in context and without the fractional modifier
“bottom one-half of.” The Citywide Ordinance is an outlier in this
regard. See Int’l Food & Bev. Sys. v. City of Fort Lauderdale,
724 F. Supp. 942, 944-45 (S.D. Fla. 1989) (“anal cleft or
cleavage”); Fillingim v. Boone, 835 F.2d 1389, 1393 (11th Cir.
1988) (“buttocks, anus or anal cleft, or cleavage”); DPR, Inc. v.
City of Pittsburg, 24 Kan. App. 2d. 703, 715 (1998) (“anal cleft or
cleavage of the buttocks”).

36a
ii. First Amendment
1. Plaintiffs’ Choice of Clothing is
Communicative
Conduct is communicative if coupled with an
“intent to convey a particularized message” and a
likelihood that “the message would be understood by
those who viewed it.” Thomas v. City of Beaverton,
379 F.3d 802, 810 (9th Cir. 2004) (quoting Spence v.
Washington, 418 U.S. 405, 410-11 (1974)). A “narrow,
succinctly articulable message” is not required.
Hurley v. Irish-Am. Gay, Lesbian, and Bisexual Grp.
Of Boston, 515 U.S. 557, 569 (1995). Clothing (or lack
thereof) and personal appearance, though important
forms of self-expression, are not inherently
communicative. See, e.g., Brandt v. Bd. of Educ. of
City of Chicago, 480 F.3d 460, 465 (7th Cir. 2007);
Zalewska v. Cty. of Sullivan, N.Y., 316 F.3d 314, 320
(2d Cir. 2003). However, clothing that conveys a
political or other message has long been recognized as
a form of communication. See, e.g., Tinker v. Des
Moines Indep. Cmty. Sch. Dist., 393 U.S. 503, 505-506
(1969) (black arm band protesting war was protected
speech); Bd. of Airport Comm’rs of City of Los Angeles
v. Jews for Jesus, Inc., 482 U.S. 569, 576 (1987) (shirt
or button bearing political message was protected
speech); see also Canady v. Bossier Parish Sch. Bd.,
240 F.3d 437, 441 (5th Cir. 2001) (“The choice to wear
clothing as a symbol of an opinion or cause is
undoubtedly protected under the First Amendment if
the message is likely to be understood by those
intended to view it.”).
Plaintiffs contend that wearing bikinis allows
them to convey messages of freedom, empowerment,
body acceptance, self-confidence, approachability,

37a
vulnerability and individuality, and that these
messages are understood by customers. (Dkt. No. 8
at 7, 16.) The City responds that the messages are
“vague and unfocused,” are not “particularized,” and
are understood only as a “sexualized image.” (Dkt.
No. 28 at 10.) But Courts have long recognized nude
or partially nude dancing as a form of communicative
conduct under the First Amendment. See, e.g.,
Barnes v. Glen Theatre, Inc., 501 U.S. 560, 565-66
(1991); City of Erie v. Pap’s A.M., 529 U.S. 277, 289
(2000); Young v. City of Simi Valley, 216 F.3d 807, 815
(9th Cir. 2000). The City does not explain how nude
dancing conveys a more “particularized” or less
“sexualized” message than serving coffee in a bikini.
Having reviewed the record, the Court observes
that what Plaintiffs refer to as “bikinis” may be
described more accurately as “pasties and G-strings.”
(See Dkt. No. 9, Exs. A-D; see also Dkt. No. 28 at
7.) However, it is not the Court’s responsibility
to comment on taste or decorum, but rather to
determine whether Plaintiffs’ choice of clothing is
communicative. The Court concludes that it is. While
some customers view the bikinis as “sexualized,” to
others, they convey particularized values, beliefs,
ideas, and opinions; namely, body confidence and
freedom of choice. Moreover, in certain scenarios,
bikinis can convey the very type of political speech
that lies at the core of the First Amendment. For
instance, Plaintiffs might wear bikinis constructed of
the bright pink “pussyhats” worn by protesters during
the Women’s March or the black armbands worn by
students during the Vietnam War, or emblazoned
with the logos and colors of their favorite sports
teams. Accordingly, the Court finds that Plaintiffs’
choice of clothing is sufficiently communicative.

38a
2. The Dress Code Ordinance is Content
Neutral
A law is content based if it “applies to particular
speech because of the topic discussed or the idea or
message expressed.” Reed v. Town of Gilbert, Ariz.,
135 S.Ct. 2218, 2227 (2015). Where a law is content
neutral on its face, the Court considers whether it is
nevertheless content based because it cannot be
“‘justified without reference to the content of the
regulated speech,’” or was adopted “‘because of
disagreement with the message’ conveyed.” Id.
(quoting Ward v. Rock Against Racism, 491 U.S. 781,
791 (1989)).
Plaintiffs contend that the Dress Code Ordinance
is content based because it is “designed to suppress
certain ideas that the City finds distasteful.” (Dkt. No.
36 at 6.) The City responds that it is content neutral
because its enactment was motivated not by
disagreement with any particular message, but
rather to “target the negative secondary effects of
[Plaintiffs’] business model.” (Dkt. No. 28 at 12.)
At this stage in the proceedings, the Court finds
that the Dress Code Ordinance is content neutral.3
The Dress Code Ordinance is content neutral on its

The Court notes that, although the stated purpose of the
Dress Code Ordinance is to deter secondary effects, there is some
indication that it was motivated at least in part by the City’s
disagreement with Plaintiffs’ message. For instance, the City
describes the Plaintiffs’ bikinis as conveying “an entirely
‘sexualized image,’” (Dkt No. 28 at 10) and submits a declaration
describing in detail the “impact of wearing a swimsuit on the
wearer and the observers,” including “sexual self-objectification”
and “sexualization of women.” (See Dkt. No. 31.) These
statements would seem to support, but do not compel at this
stage, a finding that the Dress Code Ordinance is content based.
3

39a
face, and was enacted, at least in part, in an effort
to control secondary effects “unrelated to the
suppression of free expression.” City of Renton v.
Playtime Theatres, Inc., 475 U.S. 41, 48 (1986) (where
predominate purpose of statute is to control secondary
effects, this is “more than adequate” to establish an
interest unrelated to the suppression of expression).
As a content neutral regulation, the Dress Code
Ordinance is subject to intermediate scrutiny.
3. The Dress Code Ordinance Does Not
Satisfy Intermediate Scrutiny
An ordinance satisfies intermediate scrutiny “if it
is designed to serve a substantial government
interest, is narrowly tailored to serve that interest,
and does not unreasonably limit alternative avenues
of communication.” World Wide Video of Washington,
Inc. v. City of Spokane, 368 F.3d 1186, 1192 (9th Cir.
2004) (citation omitted).
First, the Court determines whether the Dress
Code Ordinance is designed to serve a substantial
government interest. See City of Los Angeles v.
Alameda Books, 535 U.S. 425, 434-35 (2002). The
City contends that bikini barista stands have
generated “increases in crime,” “increases in public
sexual conduct,” “increases in the opportunity for the
spread of sexually transmitted diseases,” “increases
in corruption of minors,” and “adverse impacts upon
the aesthetics and property values of the surrounding
neighborhoods and businesses.” (Dkt. No. 8-2 at 3.)
The Court finds that the City has a substantial
interest in deterring these claimed secondary effects.
Second, the Court determines whether the City
has “demonstrate[d] a connection between the speech
regulated by the ordinance and the secondary effects

40a
that motivated the adoption of the ordinance.”
Alameda Books, 535 U.S. at 441. “[V]ery little
evidence is required.” Id. at 451 (Kennedy, J.,
concurring). While the City may rely on any evidence
that is “reasonably believed to be relevant” and that
“fairly support[s]” its rationale for the ordinance, it
cannot rely on “shoddy data or reasoning.” Id. at 438.
The Court does not conclude that the City’s
evidence reasonably supports the Dress Code
Ordinance. The City claims it relied on years of data,
police reports, and interviews describing the
secondary effects of bikini barista stands. (Dkt. No.
28 at 4, 14; see also Dkt. No. 9, Exs. A-D.) However,
the City’s evidence is hardly overwhelming, and its
methodology suspect. For instance, the City contends
that crime occurs disproportionately in the areas
surrounding bikini barista stands. In support, it
offers results from a police database. (See Dkt. No. 28
at 6; Dkt. No. 30 at 2.) But these results do not
distinguish between coffee stands where baristas
wear bikinis and those where they do not, nor do they
suggest that the reported incidents were caused by
the baristas’ choice of clothing. (See Dkt. No. 30 at 23; Ex. A.) The City contends that it has been unable
to regulate the secondary effects of these stands using
existing laws.
However, most of the criminal
incidents cited in the legislative record occurred years
ago and were perpetrated by two individuals who
have since been convicted. (See Dkt. No. 9, Exs. A-D;
Dkt. No. 29.) In short, the legislative record does not
demonstrate a causal connection between bikinis and
crime and other secondary effects.
Finally, the Court determines whether the City
has “regulate[d] the secondary effects of speech by

41a
suppressing the speech itself.” Alameda Books, 535
U.S. at 445 (Kennedy, J., concurring). Nor may the
City “burden substantially more speech than is
necessary to further the government’s legitimate
interests,” Ward, 491 U.S. at 799, or “unreasonably
limit alternative avenues of communication.” World
Wide Video, 368 F.3d at 1192 (citation omitted). The
City does not meet these requirements. While the
City contends Plaintiffs are “free to express whatever
message they wish by wearing bikinis (or less) in
other aspects of their lives” or “in other ways at work,
such as by conversation” (Dkt. No. 28 at 16), it is
precisely by wearing bikinis while serving coffee to
customers that Plaintiffs convey their intended
messages. The Dress Code Ordinance suppresses
Plaintiffs’ speech itself and does not leave open
alternative avenues of communication. Moreover, the
Dress Code Ordinance goes far beyond prohibiting the
“pasties and G-strings” complained of by the City, and
requires Plaintiffs and other employees of “QuickService Facilities” to wear substantially more clothing
than all other city residents. The City’s legitimate
interest in deterring crime could reasonably be
furthered in less restrictive ways.
Therefore, the Court finds that the Dress Code
Ordinance does not satisfy intermediate scrutiny.
Having found that Plaintiffs have demonstrated a
likelihood of success on the merits of their Fourteenth
and First Amendment claims, the Court does not
reach Plaintiffs remaining claims at this time.
B. Likelihood of Irreparable Harm
Having demonstrated a likelihood of success on
the merits, Plaintiffs have also demonstrated
irreparable harm, as “loss of First Amendment

42a
freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.” See
Klein v. City of San Clemente, 584 F.3d 1196, 120708 (9th Cir. 2009) (quoting Elrod v. Burns, 427 U.S.
347 (1976)).
C. Public Interest and Balance of the
Equities
Without a preliminary injunction, Plaintiffs will
be deprived of their constitutional rights. On the
other hand, the City will face no serious injustice if
the injunction issues. The City concedes that “[f]or
nearly a decade” it has “grappled with the harms
associated with bikini barista stands,” and the Court
sees no reason it cannot continue to do so pending
resolution of this action on the merits. (Dkt. No. 28
at 1.)
Conclusion
Plaintiffs have demonstrated that they are
entitled to a preliminary injunction based upon their
claims that the Citywide Ordinance and the Dress
Code Ordinance are unconstitutional under the
Fourteenth and First Amendments. Therefore, the
Court GRANTS Plaintiffs’ Motion for a Preliminary
Injunction.
The clerk is ordered to provide copies of this order
to all counsel.
Dated December 4, 2017.
/s/
Marsha J. Pechman
United States District Judge

43a
APPENDIX C
[ENTERED: September 6, 2019]
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOVANNA EDGE,
an individual; et al.,

|
|
|
Plaintiffs-Appellees, |
|
v.
|
|
CITY OF EVERETT, a
|
Washington municipal
|
corporation,
|
|
Defendant-Appellant. |
|

No. 17-36038
D.C. No.
2:17-cv-01361-MJP
Western District of
Washington, Seattle
ORDER

Before: IKUTA and CHRISTEN, Circuit Judges, and
CHOE-GROVES,* Judge.
Judges Ikuta and Christen have voted to deny
the petition for rehearing en banc, and Judge ChoeGroves has so recommended.
The full court has been advised of PlaintiffsAppellees’ petition for rehearing en banc, and no
judge of the court has requested a vote on the petition
for rehearing en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for
rehearing en banc are DENIED.

The Honorable Jennifer Choe-Groves, Judge for
the United States Court of International Trade, sitting by
designation.
*

44a
APPENDIX D
Ordinance No. 3560-17
An Ordinance concerning the regulation of
Quick Service Facilities including Barista
Stands.
Whereas, the City Council does find:
1. The City has seen a proliferation of crimes of a
sexual nature occurring at bikini barista stands
throughout the City, on its borders, and in Snohomish
County. The City has reviewed this matter and found
evidence relating to the adverse impacts of the
conduct of bikini barista stands. This evidence relates
to barista stands with employees dressing in a
manner that is closely and customarily associated
with adult entertainment or adult situations. Further
this evidence indicates that businesses providing
casual food services including such things as fast food
restaurants, delis, food trucks and coffee stands
(“Quick Service Facilities”) might easily transition to
the bikini barista stand model;
2. The City has seen that the minimalistic nature
of the clothing worn by baristas at these “bikini”
stands lends itself to criminal conduct in that it can
be quickly and simply partially or fully removed or
adjusted but done in a manner that is not easy to
detect unless someone is placed in the same proximity
as the patron. Employees and owners of barista
stands where this conduct occurs are making large
sums of money from overtly sexual, lewd conduct, and
prostitution. The nature of the Quick Service Facility
has shown that it provides the opportunity for
scantily clad baristas to easily engage in sexual
conduct with customers;

45a
3. The City has considered such evidence as
compiled in the legislative record for this ordinance
also including court cases, police records, memoranda
and other information related to conduct of bikini
barista stands;
4. The City finds that such information about
bikini barista stands indicates that they create
adverse secondary effects, including health, safety,
economic, and aesthetic impacts, upon neighboring
properties and the community as a whole, and that
they have adverse impacts upon minors;
5. The City finds that this information about bikini
barista stands is reasonably related to the regulation
of bikini barista stands including Quick Service
Facilities, and that this information also indicates
that these establishments cause or tend to cause the
same or similar adverse secondary effects;
6. The City finds that it has primarily used its
lewd conduct and adult entertainment regulations
and ordinances to regulate inappropriate conduct at
these stands. This permitted the existence of bikini
barista stands with a “bikini” constituting nothing
more than pasties and a G-string. This approach,
however, has resulted in a labor-intensive enforcement
effort by the City, while seemingly providing little or
no deterrent to the bikini baristas’ continued flashing
and committing acts of prostitution. Further the City
has found that the stand owner/operator simply
terminates any barista caught by police and replaces
with another who then continues with the same
conduct further frustrating reasonable enforcement
efforts;

46a
7. The City finds that where stand owners/
operators require their baristas to wear more clothing
than bikinis, that the negative adverse impacts
associated with bikini barista stands do not exist. The
City further finds that these types of stands where
more clothing is required can be very successful;
8. The City finds that courts have allowed cities to
rely upon the experiences of other jurisdictions and
have not required each jurisdiction regulating
businesses to conduct their own studies. The City has
decided to also rely upon such other experiences, as
recognized by the courts, because it believes it may
not have the time, experience and/or resources to
adequately study these issues;
9. The City finds that experience in other regions
of the country shows that that bikini” business model
can easily migrate to other types of quick service
businesses if the City limited the dress requirements
only to coffee stands. For example in Florida in the
90s, the popularity of bikini hot dog stands lead to
similar bikini type businesses when local authorities
enacted dress requirements for hot dog stands. More
recently, the bikini business model has been used for
food trucks. These other “bikini” businesses generate
the same negative secondary effects. For example, a
bikini hot dog vendor in New York was arrested for
prostitution;
10. The City finds that all of this evidence confirms
that bikini barista stands, due to their nature, have
generated: a) increases in crime; b) increases in public
sexual conduct; c) increases in the opportunity for the
spread of sexually transmitted diseases; d) increases
in corruption of minors; and e) adverse impacts upon

47a
the aesthetics and property values of the surrounding
neighborhoods and businesses;
11. The City finds that imposing minimal dress
standards requiring coverage of the torso and pubic
and buttocks area for barista stands and Quick
Service Facilities together with a licensing plan
placing the responsibility for compliance primarily on
the stand owner would lessen the negative adverse
impacts related to bikini barista stands;
12. The City finds that it is not the intent of the
City to suppress any protected rights of expression
under
the
United
States
or
Washington
Constitutions, but to propose and enact content
neutral legislation which addresses narrowly the
negative adverse impacts associated with bikini
barista stands while allowing these types of
businesses adequate alternative channels for
communication of protected expression;
13. The City finds that a licensing mechanism
is needed to place more accountability and
responsibility on the owners of businesses where the
illegal conduct has occurred. Criminal provisions
allow owners to avoid liability by pleading ignorance
and game the system by creating a paper trail
purporting to prohibit conduct while in fact
encouraging that conduct by looking the other way
and setting revenue expectations that implicitly
encourage such conduct;
14. The City finds that this Ordinance bears a
substantial relation to public health, safety or welfare
and promotes the best long term interests of the
Everett community; and

48a
Whereas, the City Council does conclude:
1. The evidence provided is clearly reliable and
demonstrates that bikini barista stands generate
significant adverse secondary effects;
2. This evidence supports the conclusion that the
bikini barista stand model is easily transitioned to
other Quick Service Facilities type of business and, as
such, it is appropriate and necessary to regulate these
all the same;
3. The evidence supports the conclusion that the
City has tried to regulate these businesses in a less
restrictive manner which has proven unsuccessful
and that imposing minimal dress requirements along
with a licensing scheme placing responsibility for
compliance primarily on the owner is reasonable and
will both diminish the adverse secondary effects and
improve the quality of living within the City; and
4. This ordinance is intended to protect
Constitutional rights while addressing the adverse
impacts these bikini barista stands have on the City;
Now, therefore, the City of Everett does ordain:
Section 1. Intent& Purpose
This Ordinance is intended to protect the general
public health, safety and welfare of the citizenry of the
city through the regulation of Quick Service
Facilities. The regulations in this Ordinance are
intended to prevent health and safety problems in and
around Quick Service Facilities where employees
work in various states of undress and to prevent
dangerous and unlawful conduct in and around such
locations. To accomplish these goals, this Ordinance
adopts certain minimum dress requirements and

49a
makes the business owners primarily responsible for
enforcement.
Section 2. Definitions
A. “Dress Requirement” is clothing that covers
“minimum body areas.” Such clothing shall not be
see-through and must fit adequately so that
undergarments and all minimum body areas remain
covered at all times including when the wearer is
sitting, standing, bending, reaching or performing
other work duties. The City Clerk is authorized to
issue regulations to ensure full compliance and provide
diagrams to illustrate the Dress Requirement.
B. “Minimum body areas” means the upper and lower
body (breast/pectorals, stomach, back below the
shoulder blades, buttocks, top three inches of legs
below the buttocks, pubic area and genitals).
C. “Quick-Service Facilities” (“Facility”) include coffee
stands, fast food restaurants, delis, food trucks, and
coffee shops, as well as businesses that provide drivethru forms of food and/or beverage service, or are
focused on quick service providing minimal or no table
service. If an owner owns or operates more than one
Quick Service Facility within the City, each Facility
shall be treated as a separate business for the purpose
of this Ordinance.
D. “Employee” means anyone working at a Quick
Service Facility including the owner or any person
who agrees or contracts with the owner of a Quick
Service Facility to operate the business or work at
the business, whether working as an employee
or manager or other type of agent including
subcontractors and independent contractors.

50a
E. “Owner” means the person that owns the Quick
Service Facility from which the business activity is
conducted.
F. “Person” means any individual, receiver,
administrator, executor, assignee, trustee in
bankruptcy, trust, estate, firm, co-partnership, joint
venture, club, company, joint stock company, business
trust, corporation, limited liability company,
association, society, or any group acting as a unit,
whether mutual, cooperative, fraternal, nonprofit, or
otherwise.
Section 3. Dress requirement for all Quick
Service Facilities
The dress of all employees, owners and operators of
Quick Service Facilities must comply with the Dress
Requirement. The owner is responsible to ensure that
all employees comply with the Dress Requirement.
Section 4. Violations of the dress requirement
and probationary license requirement
A. Unlawful Acts.
1. It shall be unlawful for the owner of a Quick
Service Facility to serve customers (to operate a
Facility) when the owner or any Employee is not in
full compliance with the dress requirement. A
violation of this requirement is a civil infraction.
2. It shall be unlawful for a person required to
obtain a Quick Service Probationary License under
this Ordinance to knowingly operate a Quick Service
Facility without having a valid Quick Service
Probationary License. A violation of this requirement
shall be a gross misdemeanor.

51a
B. Civil Infraction Violations including the Quick
Service Probationary License Requirement.
Civil infractions for violating the Dress Requirement
shall be issued against the owner of the Facility by
Everett Police and/or Everett Code Enforcement.
1. First violation. The first infraction issued to a
Quick Service Facility shall be a 250 fine assessed
against the owner. In addition, the owner shall be
required to obtain and maintain a Quick Service
Probationary License issued in accordance with
Section 4(C) (1) of this Ordinance for five consecutive
years following a violation in order to operate a Quick
Service Facility at the location where the violation
occurred.
2. Subsequent Violations. If an owner of a Quick
Service Facility is operating with a Quick Service
Probationary License and the owner or an employee
violates the dress requirement, the infraction issued
to an owner shall be a $500 fine assessed against the
owner. In addition, the owner shall be required to
continue to have a Quick Service Probationary
License for five years following the subsequent
violation to operate any Quick Service Facility at the
location where the subsequent violation occurred. If
the owner receives two or more infractions while
required to have a Quick Service Probationary
License, those citations shall serve as grounds for
revoking the Quick Service Probationary License
pursuant to Section 4(C).
3. Notice of infraction and of the Quick
Service Probationary License requirement. An
owner of a Quick Service Facility shall be deemed to
have notice of the infraction and of the Quick Service

52a
Probationary License requirement if the citation and
notice is either mailed to the owner via first class mail
to the address provided in the owner’s application for
a City business license for the Quick Service Facility
(provided if there is no application, then notice may
be mailed to an address determined by the City to be
the owner’s) or by having it hand-delivered to the
Quick Service Facility’s location and provided to the
owner, or any employee who is 18 years or older. The
notice shall identify the address of the Quick Service
Facility, the violation of the Dress Requirement and
the date and time the violation occurred.
4. Appeal of infraction. Any challenge of an
infraction shall be in accordance with the rules in
Washington State Infraction Rules for Courts of
Limited Jurisdiction. Pursuant to Infraction Rule 2.4
any such appeal must be filed within 15 days of the
service of the notice of infraction.
C. Probationary License Application, Denial,
and Revocation.
1. Application for a Probation License
Requirement. An owner of a Quick Service Facility
required to obtain a Quick Service Probationary
License shall apply for the license using the
procedures in EMC 5.04.050, subject to the following
additional requirements: (a) the applicant must
affirm that the owner has adopted a mandatory dress
code that complies with the dress requirement in
Section 3 of this Ordinance and has posted that dress
code in a conspicuous location on or within the Quick
Service Facility where it can be easily viewed by the
employees of the Quick Service Facility;

53a
2. Denial. In addition to those bases for denial of
a license in chapter 5.04 EMC, a Quick Service
Probationary License may/will be denied if (a) the
owner has previously had a Quick Service
Probationary License revoked in the prior 5 years; or
(b) has been convicted of operating a Quick Service
Facility without having obtained a valid Quick
Service Probationary License.
3. Revocation of Quick Service Probationary
License for multiple violations. If an owner of a
Quick Service Facility that has been required to
obtain a Quick Service Probationary License receives
two or more infractions for violating the Dress
Requirement during the period the Owner is required
to have a Quick Service Probationary License, those
infractions shall be grounds for revoking the Quick
Service Probationary License. This ground for
revocation is in addition to those provided for in EMC
5.04.080. Any appeal from revocation shall be
governed by Chapter 5.04 EMC, as supplemented by
the requirements of Section 5 of this Ordinance.
D. Infraction does not limit authority to issue
criminal citation. Nothing in this Ordinance shall
preclude the City from filing criminal charges for any
conduct which violates the laws of the City or the
State, including but not limited laws prohibiting lewd
conduct.
Section 5. Appeal from a Notice of Denial or
Revocation of Quick Service Probationary
License
A. Appeal from Notice of Revocation or Notice
of Denial. If the City Clerk determines that there are
grounds for denying or revoking a Quick Service

54a
Probationary License pursuant to this Ordinance,
the City shall institute the denial or revocation by
the delivery of a Notice of Denial/Revocation pursuant
to EMC 5.04.070-080. The denial or revocation
shall become effective if the owner does not file an
appeal within 10 days of receiving the Notice of
Denial/Revocation as set forth in EMC 5.04.070-080.
A party appealing a denial or revocation cannot
challenge the validity of any infraction that has
become final before the date of the Notice of
Denial/Revocation.
B. Content. Form and Procedure of Appeal.
The Notice shall be in writing and include at least the
following:
1. A caption reading: “Appeal of Notice of _____,”
giving the name of the appellant and the name of
the Quick Service Facility;
2. A brief statement specifically identifying what
is being appealed, together with any material facts
claimed to support the contentions of the
appellant;
3. A brief statement of the relief sought, and the
reasons why the revocation or denial of a Quick
Service Probationary License should be reversed,
modified or otherwise set aside;
4. The current address of the owner/appellant;
5. Current contact information; and
6. A verification, by declaration under penalty of
perjury, made by the owner/appellant as to the
truth of the matters stated in the appeal.

55a
C. Stay of Denial/Revocation Pending Appeal. A
Quick Service Probationary License denial or
revocation will be stayed and will not become effective
upon the filing of a timely appeal and will remain
stayed during the pendency of the appeal. The stay
shall be lifted ten days after the appeal is denied or
on the day a pending appeal is dismissed, whichever
is sooner. In addition, the City may seek to have the
stay lifted if an additional violation of the dress
requirement occurs during the pendency of the
appeal. The City shall make this request by filing a
motion before the hearing examiner identifying the
specifics of the new violation. The City’s request shall
be granted upon a finding by the hearing examiner
that another violation of the Dress Requirement has
occurred.
D. Waiver if No Appeal Filed. The failure to file a
timely and complete Notice of Appeal constitutes a
waiver of all rights to an appeal under this Ordinance.
Section 6. Expressive Activity.
If any employee of a Quick Service Facility engages in
expressive activities at the Quick Service Facility
while out of compliance with the Dress Requirement,
such activities shall be considered “adult
entertainment” as that term is defined in EMC
5.120.020(A), and the owner and employee must
comply with all requirements of chapter 5.120 EMC,
subject to the exceptions found in EMC 5.120.090.
Section 7. Codification.
Sections 1-6 of this Ordinance shall be codified in Title
5 EMC as a new Chapter entitled Quick Service
Facility-Dress Requirement and shall be considered a
special license for purposes of Title 5, EMC.

56a
Section 8. Severability.
Should any section, subsection, paragraph, sentence,
clause, phrase, or portion of this Ordinance or its
application to any person or situation, be declared
unconstitutional, invalid for any reason, or
preempted by state or federal law or regulations, such
decision shall not affect the validity of the remaining
portions of this Ordinance or its application to any
other persons or situations. The City Council hereby
declares that it would have adopted this Ordinance
and each section, subsection, paragraph, sentence,
clause, phrase, or portion thereof irrespective of the
fact that any one or more sections, subsections,
paragraphs, sentences, clauses, phrases, or portions
be declared unconstitutional, invalid, or preempted.
Section 9. General Duty.
It is expressly the purpose of this Ordinance to
provide for and promote the health, safety, and
welfare of the general public and not to create or
otherwise establish or designate any particular class
or group of persons who will or should be specially
protected or benefited by the terms of this Ordinance.
It is the specific intent of this Ordinance that no
provision or any term used in this Ordinance is
intended to impose any duty whatsoever upon the
City or any of its officers or employees. Nothing
contained in this Ordinance is intended nor shall be
construed to create or form the basis of any liability
on the part of the City, or its officers, employees, or
agents, for any injury or damage resulting from any
action or inaction on the part of the City related in
any manner to the enforcement of this Ordinance by
its officers, employees, or agents.

57a
Section 10. Savings.
The enactment of this Ordinance shall not affect any
case, proceeding, appeal, or other matter currently
pending in any court or in any way modify any right
or liability, civil or criminal, which may be in
existence on the effective date of this Ordinance.
Section 11. Corrections.
The Clerk is authorized to make necessary corrections
to this Ordinance including, but not limited to, the
correction of scrivener’s/clerical errors, references,
Ordinance numbering, section/subsection numbers,
and any references thereto.
/s/
Ray Stephanson, Mayor
ATTEST:
/s/
City Clerk
Passed: 8/16/2017
Valid: 8/21/2017
Published: 8/25/2017
Effective Date: 9/5/2017

58a
APPENDIX E
U.S. CONST. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.

